<html>
<title> - MOVING AHEAD FOR PROGRESS IN THE 21ST CENTURY [MAP-21] PROGRAM CONSOLIDATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









    MOVING AHEAD FOR PROGRESS IN THE 21ST CENTURY [MAP	21] PROGRAM 
                             CONSOLIDATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

                           Serial No. 114-146

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-914 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
Michael Kiko, Staff Director, Subcommittee on Transportation and Public 
                                 Assets
                           Sarah Vance, Clerk

                                 ------                                

             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 8, 2015.................................     1

                               WITNESSES

Mr. Thomas Echikson, Chief Counsel, Federal Highway 
  Administration, U.S. Department of Transportation
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. David S. Zachry, Chairman, American Road and Transportation 
  Builders Association
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. Carlos Swonke, Director, Environmental Affairs Division, 
  Texas Department of Transportation
    Oral Statement...............................................    22
    Written Statement............................................    24

 
    MOVING AHEAD FOR PROGRESS IN THE 21ST CENTURY [MAP-21] PROGRAM 
                             CONSOLIDATION

                              ----------                              


                       Tuesday, December 8, 2015

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:14 p.m., in 
Room 2247, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, DeSaulnier, and Duckworth.
    Mr. Mica. Good afternoon. I would like to welcome everyone 
and call this hearing of the subcommittee of Government 
Oversight and Reform. Our subcommittee's title is 
Transportation and Public Assets. I call this hearing to order.
    Welcome, everyone. And we will probably have some votes, 
but I would like to try to get our witnesses heard, and if we 
have to go back and forth, we will have to recess during those 
votes.
    The title of today's subcommittee hearing is ``Moving Ahead 
for Progress in the 21st Century'' talking about MAP-21 and 
some of the program consolidation elimination and where we are 
with that.
    We have three official witnesses. The Federal Highway 
Administration, Department of Transportation has two folks who 
will be participating also.
    So the order of business will be opening statements, and I 
will start with mine and will defer to other Members. We will 
leave the record open for a period of 10 days for additional 
testimony or comments from Members or questions for our 
panelists.
    So with that, I will start with my opening remarks, and 
then I will yield to Ms. Duckworth.
    Today's hearing is being called--it is kind of interesting 
because this is the eve, the end of MAP-21 legislation we 
adopted a little over 3 years ago, and I had the chance to 
chair the committee at that time. It is commonly known as MAP-
21. And within the last few days, we have enacted new 
legislation, FAST legislation, I guess, is the nickname for it. 
But it carries on where a lot of the policy which was 
established in MAP-21 some 3 years ago set forth a whole series 
of significant changes, some consolidation, some elimination of 
programs, and also importantly, devolution to some of the 
States. We tried to expedite a process, tried to eliminate, 
again, some of the duplications, and save taxpayers money, put 
more money in the hands of those who are actually doing these 
infrastructure projects.
    So this is one of the first times that we have had a chance 
to look at where we have been with MAP-21, and then we want to 
build on that with the new legislation just signed into law. 
And if there are some problems with operational standpoint from 
the Department, I know they try to comply but I think this is a 
good time to see how they have complied and get some of the 
facts as to what they have done to try to streamline the 
process, eliminate some of the duplication, and then devolve to 
those closest to projects the actual responsibility.
    So we know that section 1301 of MAP-21 tasks the Secretary 
with identifying opportunities for States to assume 
responsibilities for again a whole host of activities, 
permitting being one of them, and then actually operating and 
functioning in some of the responsibilities previously tasked 
in Washington to the Federal Government.
    So we said specifically in the bill that we want that done 
in a manner that protects public health, the environment, and 
also involves public participation.
    So today, we are here to see again, take an inventory of 
where we are, where we have come, and where we need to go. We 
will look at the secretarial responsibilities such as 
environmental permitting or determinations regarding 
environmental rule. We want to judge if DOT has made available 
some of those opportunities for States. We will probably hear 
some problems. We will probably hear some success stories, I 
think, from one of our witnesses.
    So our focus today is, again, whether the provisions of 
MAP-21 that were intended to make DOT more efficient and 
provide more flexibilities and devolve responsibilities to the 
State and other entities are in fact achieving the objectives 
we set out for.
    So I look forward to hearing from our witnesses and 
participation. I think this can be a very positive lead into 
the new legislation that we have just adopted.
    Mr. Mica. So those are my opening comments. Let me now 
yield to our distinguished ranking member Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. And I will have to 
rely on your expertise since I was not here when MAP-21 was 
passed. And I am sure the institutional knowledge that you have 
will be very valuable in this hearing.
    I want to thank you for holding today's hearing on MAP-21. 
This important bipartisan legislation included very important 
provisions that consolidated service transportation programs 
and mandated the use of performance management measures.
    Congress has an essential oversight role in ensuring that 
these good government reforms are implemented properly, and I 
look forward to hearing from our witnesses today on the state 
of that implementation.
    Last week, I was proud to join 358 of my colleagues in the 
House to pass the FAST Act, which authorizes approximately $300 
billion to be invested in Federal highway and public 
transportation projects over the next 5 years.
    Most importantly, this bipartisan act addressed my three 
transportation policy priorities, it provides States and 
industry with a certainty, it strengthens public safety, and 
invests in innovative, multimodal transit solutions. When I 
travel home to Illinois' Eighth Congressional District, my 
local transportation community is constantly asking me why 
Washington can't come together to compromise on a long-term 
solution, and they have grown frustrated with the short-term, 
kick-the-can, bandaid fixes that prevent States and local 
government from effectively planning long-term projects.
    So I am especially pleased that Congress has worked in a 
bipartisan manner to craft legislation that includes 5 years of 
funding at adequate levels. I am particularly relieved that, 
according to the Illinois Department of Transportation, the 
FAST Act will provide my home State with nearly $3 billion in 
public transit investments, the fourth-highest allotment behind 
only New York, California, and New Jersey, and approximately 
$7.5 billion in total highway investments.
    However, it is important to note that while the FAST Act 
represents progress, it is far from perfect. Indeed, I am 
cosponsoring the GROW AMERICA Act, which authorizes $478 
billion to rebuild our infrastructure over a 6-year period. I 
am on record supporting a bill that would provide States with 
even greater levels of investment and certainty than the FAST 
Act.
    In my view, investing in American infrastructure is the 
ultimate taxpayer win-win. It sustains well-paying American 
transportation industry jobs and it creates new ones. Investing 
in American infrastructure is one of the most effective fiscal 
policy options to increase economic growth and employment. And 
yet, despite our nation's crumbling system of roads and bridges 
and the public support for investing their tax dollars in local 
projects that create new American jobs, Congress remains unable 
or unwilling to dramatically increase investments in our 
transportation system.
    At the same time, the American Society of Civil Engineers 
gave America's roads a grade of D in its 2013 Infrastructure 
Report Card, and furthermore, their 2014 report card for my 
home State of Illinois the findings are just as disturbing. The 
report states that severe traffic congestion costs Illinois' 
economy billions of dollars in lost productivity each year. 
Congestion is estimated to cost approximately $4 billion 
annually for the Chicago area alone, and 42 percent of 
Illinois' major roads are in poor or mediocre condition. 
Driving on those roads cost Illinois motorists $3.7 billion a 
year in extra vehicle repairs and operating costs. This is 
simply unacceptable, especially when multiplied by 50.
    The FAST Act is a step in the right direction, but further 
action is needed. I would simply note that it is my hope that 
over the next 5 years Congress can work in a bipartisan fashion 
to develop a truly sustainable and long-term infrastructure 
solution for our nation.
    Throughout our nation's history, our economic growth has 
been driven by significant infrastructure investments from the 
construction of the Erie Canal in 1807 to the creation of the 
transcontinental railroad in 1869 to President Eisenhower's 
visionary establishment of the interstate highway system in the 
1950s. It is our responsibility to preserve this proud legacy 
and continue in making important investments to enhance 
America's ability to thrive and compete well into the 21st 
century.
    Again, I would like to thank you for holding the hearing, 
and I yield back.
    Mr. Mica. I thank the gentlelady. And again, we will leave 
the record open for other Members who wish to submit a 
statement.
    And now, I would like to recognize our panel of witnesses. 
I am pleased to welcome first Mr. Thomas Echikson. And he is 
the chief counsel at the Federal Highway Administration, 
Department of Transportation. Mr. Echikson is accompanied by 
two experts from the Federal Highway Administration, and I am 
going to swear them in, too, which we will do everyone in just 
a few minutes. One of those is staffer Brian Bezio, chief 
financial officer of the Federal Highway Administration. The 
other is Mr. Peter Stephanos, who is director of the Office of 
Transportation Performance Management of FHWA.
    I also welcome Mr. David Zachry, chairman of the American 
Road and Transportation Builders Association.
    And then our other witness is Mr. Carlos Swonke, and is the 
director of Environmental Affairs at the Texas Department of 
Transportation. We appreciate his traveling up to be with us 
and his participation today.
    So I want to welcome all of you. This is an investigations 
and oversight subcommittee, so I will ask all of you to stand 
and the two that are behind you that are going to testify, 
raise your right hand.
    [Witnesses sworn.]
    Mr. Mica. All of the witnesses answered in the affirmative. 
And we will let the record reflect that.
    I am not sure who has been before us before, but we try to 
have you give us a little 5-minute presentation. If you have 
lengthy materials you would like added to the record, just 
request that through the chair.
    So we will proceed and we will hear from Mr. Thomas 
Echikson, Chief Counsel of the Federal Highway Administration, 
USDOT. Welcome, sir, and you are recognized.

                       WITNESS STATEMENTS

                STATEMENT OF THOMAS G. ECHIKSON

    Mr. Echikson. Thank you, Chairman Mica and Ranking Member 
Duckworth. Thank you for inviting me here today to discuss 
program consolidation under MAP-21 and provisions within it 
that are designed to accelerate project delivery.
    With me today are Brian Bezio, our Chief Finance Officer; 
and Peter Stephanos, Director of our Office of Transportation 
Performance Management. They are experts in some of the topics 
you may wish to discuss today and are available to answer 
questions, as am I.
    Before discussing MAP-21, it's important to mention that 
just last Friday President Obama signed the Fixing America's 
Surface Transportation Act, the FAST Act, into law, marking the 
first long-term transportation funding bill Congress has passed 
in 10 years. Though the FAST Act isn't perfect, it reflects 
bipartisan compromise and ends the long cycle of uncertainty 
for State DOTs. I assure you that the Department is already 
hard at work implementing the FAST Act, and we will continue to 
do so in the days and months ahead.
    MAP-21 consolidated FHWA's programs into a smaller number 
of broader programs. These new programs, however, retain and 
continue the eligibilities that have previously existed. This 
modified program structure provides our grantees with greater 
flexibility to deliver projects more efficiently. It also 
allows our grantees to make data-driven decisions in order to 
meet performance targets.
    Notwithstanding MAP-21's program consolidation, the same 
activities previously authorized remain eligible for funding 
under MAP-21. As such, neither the number nor the complexity of 
the projects and activities that we oversee has diminished. 
Throughout the country, FHWA personnel remain focused on 
overseeing a $42 billion program that is going to grow over the 
next 5 years, protecting taxpayers by ensuring that Federal 
funds are spent in accordance with the law. In fact, more than 
two-thirds of FHWA's employees are located in our field offices 
working directly with State DOTs to deliver projects.
    The cornerstone of MAP-21's Federal highway program 
transformation was the adoption of a performance-based program. 
The Department has been working diligently to finalize the 
performance management rules. As the GAO has recognized, 
completing these rules has been an arduous task. The 
performance management requirements cover a number of areas at 
varying maturity levels. In some cases we have had to establish 
the new methods, standards, and data sources necessary to 
implement an effective national program. Because State and MPOs 
will need to comply with these new requirements, it has been 
particularly important for DOT to engage with these 
stakeholders and carefully consider the impact on them.
    FHWA is looking forward to the benefits that performance-
based policy framework will bring in terms of helping States 
focus their expenditures where they are most needed. 
Implementing the performance management requirements and 
assisting States and MPOs as they transition towards this 
framework remains a priority at FHWA. We believe performance 
management is a key tool to prepare the Federal-aid Highway 
Program for the future.
    MAP-21 also included provisions designed to support 
innovation and improve efficiency in the delivery of 
transportation projects, and this complemented the successes of 
FHWA's Every Day Counts partnership with states, local 
governments, and the private sector. We believe these 
provisions, together with our EDC efforts, are helping move 
projects from concept to completion more efficiently, saving 
time and money and allowing the public to enjoy the benefits of 
upgraded infrastructure more quickly.
    Immediately after passage of MAP-21, FHWA began working 
aggressively to implement these provisions by conducting 
outreach sessions with stakeholders, issuing guidance, and 
working collaboratively with other Federal agencies. These 
efforts helped us advance rulemaking and guidance documents in 
accordance with statutory deadlines and identify and resolve 
concerns from agency partners. We have now completed all the 
project delivery rulemakings with a statutory deadline and 
continue our broader efforts under EDC to improve and expedite 
the delivery of highway projects.
    Mr. Chairman, thank you again for the invitation to appear 
here today on behalf of FHWA. This concludes my remarks, and I 
look forward to your questions.
    [Prepared statement of Mr. Echikson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Mica. Okay. And they are not going to give opening 
testimony, but Brian Bezio and Peter Stephanos, come on up and 
take your chairs here.
    And we will turn to the next witness, which is Mr. David 
Zachry, chairman of the American Road and Transportation 
Builders Association. Welcome, sir, and you are recognized.

                  STATEMENT OF DAVID S. ZACHRY

    Mr. Zachry. Thank you, Chairman Mica, Representative 
Duckworth. I'm David Zachry. I'm CEO and president of Zachry 
Corporation in San Antonio, Texas, and I'm here today on behalf 
of the American Road and Transportation Builders Association 
where I'm honored to serve as the Chairman.
    Chairman Mica, if I can begin by commending you for your 
leadership over many years in working to cut through the 
bureaucratic red tape that has plagued transportation project 
planning and approval process. You made great contributions to 
this effort as the lead author of MAP-21. We also appreciate 
the Subcommittee convening this session to review progress in 
this area since MAP-21's enactment.
    Project delays not only waste federal resources, they also 
delay mobility and safety enhancements and stifle job and 
economic growth. The 2012 MAP-21 surface transportation law 
commendably and appropriately attempted to shorten the 9 to 19 
months or years it takes to plan, gain approval of, and 
construct a major new federally funded highway project.
    Among MAP-21's many significant reforms was an expansion in 
the use of categorical exclusions, or CEs. A CE is used when 
projects create minimal impacts on the environment. Under MAP-
21, most TE projects were automatically classified as CEs, 
including those in response to emergency situations and 
projects undertaken within an existing right-of-way.
    These--the use of CEs can shave years off an environmental 
review process. For example, the emergency CE was put in--put 
to use in May 2013 when a truck hit the I-5 Skagit River Bridge 
in Mount Vernon, Washington. Application of the CE allowed 
repairs to the bridge to begin within 24 hours of the accident 
and allowed the bridge to reopen to traffic after only 27 days.
    MAP-21 also expanded the opportunity for states to conduct 
their own environmental reviews. Both California and Texas have 
taken advantage of this opportunity. Ohio is poised to do the 
same, and Florida and Utah have also indicated their interest.
    The initial results are very positive. California said it 
has been able to reduce the amount of time for most--for the 
most complicated environmental review documents by years. 
Though Texas was only approved for the program late last year, 
it is estimated an average time savings of 25 percent for 
project reviews. However, it's important to note that these, as 
well as many other MAP-21 reforms, are discretionary, not 
mandatory. The more state and federal agencies choose to use 
the opportunities afforded by MAP-21, the greater will be its 
impact.
    On a separate topic, MAP-21 included a provision 
originating in the House Reauthorization Proposal directing 
USDOT to provide transparency regarding the use of Federal 
highway funds. Similar to what the Federal Government did with 
the highway funds spent from the Economic Stimulus Bill, this 
tool had the potential to provide a real tangible connection to 
the taxpayers by explaining exactly how the money they sent to 
the Federal Government is spent on projects in their states and 
communities. More than a year after expiration of the MAP-21, 
these efforts have yet to be started.
    Mr. Chairman, we commend the USDOT for telling the public 
how $27 billion in highway stimulus funds were spent. The same 
treatment should apply to the $80 billion in core highway 
improvements that occurred over the same time period.
    Unfortunately, there are not many examples yet of the time-
and money-saving benefits MAP-21 reforms could provide. The 
MAP-21 reforms are aimed at large, complex, very expensive, 
multiyear projects. Without the assurance of stable and 
predictable long-term Federal funding, States are often 
reluctant to proceed with these types of projects. The recent 
enactment of a 5-year reauthorization bill should help remedy 
this concern.
    Mr. Chairman, Representative Duckworth, ARTBA deeply 
appreciates the opportunity to take part in today's discussion. 
I look forward to answering any questions you might have.
    [Prepared statement of Mr. Zachry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Mr. Mica. Thank you. We will hold questions and we will now 
hear from Carlos Swonke. He is the director of environmental 
affairs, Texas Department of Transportation. Thanks for being 
with us. You are recognized.

                   STATEMENT OF CARLOS SWONKE

    Mr. Swonke. Thank you. Chairman Mica, Ranking Member 
Duckworth, my name is Carlos Swonke. I am the Director of the 
Environmental Affairs Division at the Texas Department of 
Transportation.
    TxDOT appreciates the opportunity to provide testimony to 
the Subcommittee meeting here today and to provide our 
experiences with implementing some of MAP-21's environmental 
streamlining initiatives.
    Since the--since its passage and subsequent rulemaking, 
TxDOT has taken advantage of many of the streamlining 
provisions. In my testimony, I've also offered comments on 
program consolidation and total interoperability.
    TxDOT environmentally approved over 1,800 projects last 
year. Our project delivery program involves billions of dollars 
worth of projects and is highly dependent upon an environmental 
process that is efficient and predictable. Provisions in MAP-21 
helped us to improve our efficiency and the predictability of 
the environmental process. I'll provide some specific examples 
here.
    Section 1313 of MAP-21 made permanent the Service 
Transportation Project Delivery program, which allows States to 
assume environmental approval authority under the National 
Environmental Policy Act typically reserved for the Federal 
Highway Administration. In September of 2014, FHWA finalized 
the rule establishing the program. On December 16 of last year, 
TxDOT and FHWA executed the Memorandum of Understanding 
allowing TxDOT to participate in the program.
    The general benefits of NEPA assignment come from the 
removal of a layer of review in the environmental process and 
the increase in independent decision-making of the State DOT.
    Even though we have been in the program for a year, it is 
difficult at this time to quantify the time savings we've 
realized. The reason is because larger projects may have an 
environmental review that extends several years. As such, we 
have not had the opportunity to start and finish a large 
project with the NEPA assignment authority. I will say that we 
are seeing a trend that shows that projects being approved with 
an environmental assessment of NEPA classification, these 
projects are taking closer to 2 years as opposed to the average 
of about 3 years prior to NEPA assignment.
    I can also say that smaller projects--time frames for 
smaller projects that are approved with categorical exclusion 
determinations are now being measured in days and weeks instead 
of months or years. I'll talk more about the MAP-21 categorical 
exclusions in a moment.
    I feel confident in saying that TxDOT's transition to and 
implementation of NEPA assignment has been successful. We are 
seeing time savings. I can also say that our internal program 
is more organized and our process more predictable. The success 
is owed to TxDOT leadership, who have been tremendously 
supportive, and TxDOT environmental staff, who are committed to 
making the program work.
    As you probably know, California has been working under 
full NEPA assignment program since it was authorized as a pilot 
program 8 years ago. TxDOT is the first to pursue full NEPA 
assignment under the MAP-21 changes. I know of at least four 
other states that are pursuing NEPA assignment at this time. 
They are Ohio, Utah, Florida, and Alaska. The six of our States 
talk frequently. FHWA has also been helpful in facilitating the 
conversation between the States on this issue.
    Now, I'll transition over to the MAP-21 categorical 
exclusions and mention one in particular. Section 1316 of MAP-
21 created the new categorical exclusion for work done in the 
operational right-of-way. FHWA finalized the rule for this new 
categorical exclusion on January 3 of last year. TxDOT has 
utilized this categorical exclusion about 343 times over the 
past year. It is sometimes used for routine work where another 
type of a categorical exclusion may have applied, but we've 
also used it for larger projects where a more time-consuming 
environmental assessment would have been necessary without the 
availability of this categorical exclusion. In these instances, 
it has been a terrific time-saver. Given all this talk about 
time savings, you may begin to wonder about compliance or if 
the environment is being sacrificed in any particular way.
    To prepare for NEPA assignment in our program, we made our 
internal process more rigorous. This was also in part to 
prepare for the audits by FHWA, as required by the program. I 
think it's fair to say that our analysis of project impacts and 
emphasis on regulatory compliance is as strong as it's ever 
been.
    I've mentioned here what I think are the largest MAP-21 
game-changers for our environmental program. There are 
certainly a number of other MAP-21 provisions that we've used 
and we've found to be beneficial. With the limitation on time, 
I'll offer up information on these as you see fit or as follow-
up, and I'm happy to answer any questions.
    [Prepared statement of Mr. Swonke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Mr. Mica. Thank you all. We have about 3 minutes before we 
are going to have to go vote, and you might want to get a--yes, 
I was going to say you might need a little bit more time.
    I understand also, Mr. Swonke, you may have to leave to 
catch a plane. Is that true or ----
    Mr. Swonke. No.
    Mr. Mica. You are okay?
    Mr. Swonke. I'm okay.
    Mr. Mica. Oh, good. You are going to have dinner with us. 
Thanks.
    Okay. Well, we are going to recess in just a minute and I 
want to pick up with questions. What have we got? So let me 
think, probably recess for about a half-hour. Yes. Probably 
recess for about a half-hour. We will probably have two votes. 
If you could sort of be back around a little after 3:00, we 
would appreciate it, and then we can get to the questions. So 
we will stand in recess until that time and appreciate your 
indulgence. Thank you.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee hearing 
back to order.
    And, unfortunately, this is going to continue this 
afternoon for a little while, these interruptions, but we do 
want to proceed. And I will make sure and we will keep the 
staff advised as to how much time we consume with questions. 
But we will go to some questions, and I will start. And then we 
will afford Ms. Duckworth or the minority as much or more time, 
whatever they need.
    This is sort of a meat-and-potatoes hearing. It is not a 
flashy one with indictments planned, at least this week. But in 
any event, the purpose of it is, again, as we pass MAP-21, our 
intent was there to try to discontinue some programs at the 
Federal level or consolidate programs. I have a status of MAP-
21 consolidation. Do we have copies of this that we can give to 
the witnesses? Maybe we could. But it says 52 programs 
identified by DOT has being affected, some 31 programs were 
allegedly discontinued, and then it says 15 programs 
consolidated into other programs. Two programs' eligibilities 
included research programs to program set-aside and one program 
with many eligibilities contain transportation alternatives and 
one program continued substantially changed.
    Now, we heard Mr. Echikson talk a little bit about what DOT 
had done. I asked a question as to how--and he described some 
time setting standards that he basically also testified that 
basically they had finished most of that setting the standards, 
if says needed time to set standards, and then you testified it 
is now completed or it has been completed for the most part, 
and personnel were used in that process.
    So far, we can find only about 20 FTEs that may have been 
eliminated. Maybe you could tell us where we are now. In your 
testimony you spoke to, again, some positions being needed to 
get us to where we are and where we might go. That is a long 
question but maybe you could respond.
    Mr. Echikson. Well, what MAP-21 did, the way I like to 
think of it is you had a pie, Federal-aid highway pie. It's 40 
billion, 41 billion, now 43 and increasing. Before MAP-21 there 
were 50-odd programs so you have 50 slices of that pie. Now, 
post-MAP-21, we've got six or seven slices of the pie but the 
pie itself is the same size. The types of projects that are 
being done are the same size. So while the programs were 
consolidated or sometimes eliminated, all the projects that 
we're overseeing and all that work in terms of providing 
stewardship and oversight to the states continues. So it really 
doesn't affect our FTEs.
    Mr. Mica. Some were devolved to California and Texas, for 
example.
    Mr. Echikson. Well, that's correct, under our provision 
where we assigned NEPA to Texas and to California. The people 
who were responsible for doing that work, that was some of the 
work they were responsible for in our field offices. They have 
now other work that they do to oversee the State program.
    In addition, in both California and in Texas, we still are 
----
    Mr. Mica. Has there been no diminish in personnel needed 
for Texas and California?
    Mr. Echikson. There ----
    Mr. Mica. Because they are pretty big states. I mean Texas 
just testified 1,800 projects. Is that correct?
    Mr. Swonke. Yes, that is correct. Yes, in the past year.
    Mr. Mica. Okay. You actually came into play about a year 
ago ----
    Mr. Swonke. Exactly.
    Mr. Mica.--the approval.
    Mr. Swonke. Yes.
    Mr. Mica. But that took over 2 years to get the approval, 
right?
    Mr. Swonke. It was approaching 2 years, yes ----
    Mr. Mica. Yes.
    Mr. Swonke.--when you start with our State legislation, 
too, the MOU, yes.
    Mr. Echikson. Right, so we negotiated--I think we had to 
promulgate the rule. They had to agree to waive sovereign 
immunity, and then it took about a year with Texas really being 
the first one we had in the post-MAP-21 where we had one of 
these MOUs. We're nearly final with Ohio and we just last week 
received an application from Utah. And so I think with Texas 
paving the way we've ----
    Mr. Mica. Okay. You have answered some questions. I know 
Florida was trying, when Ananth Prasad was the Secretary, to 
take over the IJR, interchange justification process report, at 
the state level, and I think another State had already done 
that. Has Texas taken over IJRs?
    Mr. Swonke. Texas has not taken over the IJRs yet.
    Mr. Mica. Well, and he told me it was just a few months. 
Now, he has been gone a year, and I asked most recently Florida 
if that had been taken over, and they said no. What is the 
story there in trying to get more approvals done? A lot of what 
we looked at, too, in the permitting, the same requirements 
were at the state level that were at the Federal level, so we 
were just going over the same thing at the Federal level, 
whereas we were trying to get the State to assume that. And 
then you set the standards. They had some approval process, but 
it hasn't worked out exactly the way we intended it because we 
still have almost as many Fed people working on the projects as 
we had before.
    Mr. Echikson. Well, we have devolved in Texas in 
particular, you know, a lot of the responsibilities. And IJRs, 
I'm going to need to get back to you. I don't know the specific 
story as far as ----
    Mr. Mica. Do either of these guys know, your ----
    Mr. Echikson. That's not really their area ----
    Mr. Mica. No? No?
    Mr. Echikson.--of responsibility ----
    Mr. Mica. Okay. Could you ----
    Mr. Echikson.--but we can get back to you.
    Mr. Mica. Yes.
    Mr. Echikson. Sure.
    Mr. Mica. But, again, trying to devolve as much as we can 
to the states, we don't have to eliminate positions but through 
attrition we can absorb some of the positions. But somehow, it 
doesn't seem like our original intent to consolidate, to 
eliminate as much of the Federal role. And again, you have got 
a couple big states now taking that over. Ohio is a good-sized 
State, maybe Florida, Utah. But at some point the rules have 
been set. We don't need all of those rule-setting people.
    Is it correct that there are only about 20 positions that 
have been eliminated?
    Mr. Echikson. Well, I would not tie any elimination of 
positions to MAP-21. We have in fact reduced our FTEs ----
    Mr. Mica. That is not good news.
    Mr. Echikson. As I explained, the purpose of MAP-21--or we 
see it as there was a reduction in the number of programs, but 
our responsibility is to oversee the Federal-aid Highway 
Program remained. And it still requires--we've got fewer people 
now overseeing a larger program.
    Mr. Mica. Well, only larger the last week?
    Mr. Echikson. Well, $42 billion program and ----
    Mr. Mica. And that should be overseeing at a smaller level 
because you have two big states which now have more 
responsibility at the local and State level than they do at the 
Federal.
    Mr. Echikson. They have responsibility to do their NEPA 
work, their environmental work, and we no longer in California 
and to some extent in Texas--there's a transition period 
because we're still carrying on some projects. Those people's 
responsibilities have been--we no longer have people doing 
that. They're exercising other responsibilities to oversee the 
program.
    I'd also point out in Texas and California and in any other 
State border projects, projects that cross state borders or 
international borders, remain the responsibility of FHWA.
    Mr. Mica. You can see that, but again, I don't know, maybe 
we need to get an inspector general to look at what is going 
on. Maybe we need sort of an analysis of what can be done as 
effectively at the local level with some Federal check-offs. 
Or, again, you testified you had set standards and that work is 
now complete, and you don't see any possibility of reducing the 
personnel?
    Mr. Echikson. I wouldn't tie it to that. I think a lot of 
the work we've done to implement the project--I mean, we've 
implemented rules, issued guidance, particularly those that had 
statutory deadlines ----
    Mr. Mica. And that is done.
    Mr. Echikson.--to expedite delivery of projects and ----
    Mr. Mica. That is done. Now, you would audit--it would be 
more of an audit or from time to time modifying those rules, 
but it doesn't seem like you need the full-court press of 
Federal bureaucrats doing that.
    Maybe Mr. Swonke--I am telling you it was very difficult to 
get anybody to come and testify. They are all terrified of DOT. 
And now, with authority for 5 years, they are afraid you all 
are going to hammer them if you come and say something. I don't 
like that at all. If I have to put bags on their head and 
subpoena them and bring them in here, we are going to find out 
what we can do more efficiently getting information from people 
who were seeing it.
    But I go back to the district, in Florida, I go around the 
country, and I am hearing the same thing. The Feds still have 
our--they are just moving the red tape around, and the intent 
and purpose of MAP-21 wasn't just to do that. So I don't know 
if you want to comment and risk all of your Federal funding, 
Mr. Swonke. Go right ahead. What are you seeing?
    And actually, this is a good news story because they have 
taken it--and a tangential question, have you all sent out 
anything to the State DOTs saying that we now have completed 
the rules, we now have these things, standards in place, and 
that you can do such-and-such?
    Mr. Echikson. Well, we ----
    Mr. Mica. Has there been such a communication?
    Mr. Echikson. We have been in constant--we're constantly in 
communication. We have an office in every State that works very 
closely ----
    Mr. Mica. But if you have a letter ----
    Mr. Echikson.--with the State DOTs ----
    Mr. Mica.--that has gone out to them, I would like to see 
that as part of the record, okay?
    Mr. Echikson. Yes, Sir.
    Mr. Mica. If I you haven't, well, maybe the staff--we can 
ask Secretary Foxx to get something out because it does take a 
while to get the rules of the game in place. The rules are in 
place, and now, we want folks to know what the opportunities 
are, relieving some of your responsibility. You could probably 
do great things in Washington, and again, we could also 
eliminate some of the red tape.
    But back to Mr. Swonke, tell us your experience and where 
you have been. You have seen the process and then what do you 
see is the potential?
    Mr. Swonke. Yes. I think, first off, getting into the 
program, the NEPA assignment program, you know, there is that 
time frame, but I think Tom did explain well that we started 
into or towards pursing the program prior to the final 
rulemaking. And that was, you know, with the approval and the 
working relationship with Federal highways that we had, moving 
towards that, saying we'll work with you to apply--to get your 
application going despite the rules not being finalized yet. 
And so we very much appreciated that working relationship.
    And so that, combined with our internal process, reworking 
and waiting for the final rule to come out and then getting our 
MOU executed, I think, you know, that should--is probably not 
the typical time frame for the--to gauge what it takes to get 
entry into the program because we were first and we were 
started before the final rule was in place.
    Working with our FHWA should be a division office and 
headquarters as well. They were very supportive in getting us 
into the NEPA assignment program. And so the--you know, 
especially from the headquarters level, their cooperation and 
their understanding of getting us ready, I think, is something 
that we would describe as a partnership. So I would say that 
that has been a--that was a positive experience.
    Mr. Mica. Okay. And do you see the potential for this--
well, for your role in taking on more responsibilities, is that 
possible? Do you think you will need additional legislation to 
accomplish that? And is there anything in the new legislation 
you think that will help you move forward even faster?
    Mr. Swonke. I think the way it is laid out that now the 
application process in the MOU is very workable in the states 
that I mentioned earlier that are pursuing it now, have moved 
along fairly quickly. You know, the MOU that we negotiate or 
worked with Federal highways with has been used as a template 
moving forward and ----
    Mr. Mica. Okay. Is that the same that California is using? 
Are they both--other than the names, but are they basically the 
same?
    Mr. Echikson. There are some differences because California 
was in a pilot program before MAP-21, and we're actually in the 
process of renewing California's assignment and ----
    Mr. Mica. And you have one MOU that would be available for 
the states that want to sign up?
    Mr. Echikson. It is absolutely--I think what we'll see in 
Ohio is very, very close. There's a ----
    Mr. Mica. And how long would the ----
    Mr. Echikson.--distinction ----
    Mr. Mica.--Ohio approval process--you said about a year for 
----
    Mr. Echikson. For our process?
    Mr. Mica. Yes, to do the MOU and ----
    Mr. Echikson. Well, the MOU itself was probably close to a 
year, maybe 10 months or so. But again, there were some 
exceptional issues with that.
    Mr. Mica. Okay.
    Mr. Echikson. So Ohio, I believe we received the formal 
application in April, and we're--it should be done by the end 
of this year. So that's a shorter period of time, and I 
anticipate with the recent application from Utah that we will 
move promptly.
    There is a process that has to go through. There's a public 
input ----
    Mr. Mica. Right.
    Mr. Echikson.--that needs to be sought and so on, but I 
think the process has reduced. And everybody sort of 
understands, as Carlos explained, the states are in contact. 
They know what we're looking for and what's expected of them. 
And we also assist them. We provide training on certain steps 
that they need to take responsibility for, how to do legal 
sufficiency reviews, how to do, you know--and we train them in 
how to do the work well.
    Mr. Mica. Mr. Zachry, what have you seen from the road 
builders' standpoint? How is MAP-21 doing? Maybe you have seen 
some experience now in Texas and California. Are you seeing--
now, some of you did testify that, let's see, California has 
sped up the process. I don't know how much. Texas, you said, 
about 25 percent of the time was whacked off?
    Mr. Swonke. That's what we're looking at. Again, we're 
still looking at that data but it looks like we can--we're--we 
should be able to achieve 25 percent. And that's essentially 
what California has documented for their reduction in time is 
about 25 percent.
    Mr. Mica. And what are you hearing from your contractors 
and road builders, Mr. Zachry?
    Mr. Zachry. Mr. Chairman, we--what we hear is--and what we 
see, and speaking as a contractor in Texas, not in the capacity 
as the chairman of ARTBA, what we see is, frankly, more 
projects coming to bid, coming out to be executed. Again, 
speaking on my own personal behalf, I don't know exactly which 
of those projects a categorical exclusion was used on, but they 
tended to be smaller projects for which that would be an 
appropriate usage, and there've been--the number of projects 
has increased quite a bit ----
    Mr. Mica. Yes.
    Mr. Zachry.--in the last 12 to 18 months.
    Mr. Mica. But the expedited categorical is--well, that is 
expedited also and handled under your MOU, right, and 
California's. But in general, we have also allowed for an 
expedited categorical exclusion for the Department, right? What 
are you seeing there, Mr. Echikson?
    Mr. Echikson. Well, we have completed all the rulemakings 
and issued new categorical exclusions. We have programmatic --
--
    Mr. Mica. When this ----
    Mr. Echikson.--agreements with the states where ----
    Mr. Mica. How long has that been in place?
    Mr. Echikson. I'd have to get back to you, but I believe 
the rule was--the final rule was issued about a year ago ----
    Mr. Mica. So that took about 2 ----
    Mr. Echikson.--but I can ----
    Mr. Mica.--years to get that in place. And maybe again, 
staff, we can ask either inspector general or GAO to look at--
probably want to try to get a year snapshot and see what 
improvements have taken place again. And our intent was to try 
to eliminate red tape, to try to speed up the process.
    We base some of this, you know, on that--was that Highway 
35, the bridge collapsed, and I stood on the bridge with 
Members. We, Mr. Oberstar and I stood on the Floor right after 
the bridge collapsed and said we would work together to 
expedite the replacement of that link in the interstate. And I 
think 435 days later I stood with about a dozen Members of 
Congress on the bridge, and that was how many days it took to 
replace that bridge, to finish the project through permitting, 
through construction.
    And that was the beginning of a working relationship with 
Ms. Boxer and other--California has some of the toughest 
environmental laws and regulations in the country. But we said 
if you could do it there, you should be able to do it anywhere. 
And what we did is we replaced an unsafe bridge with a safe 
bridge. The bridge that was built many decades ago was not 
built with any considerations like we have today for the 
environment. So we stopped dumping polluted water and runoff 
into the Mississippi River. We actually improved the quality of 
the natural waters, a safer bridge, and we did it in record 
time, which also saves a record amount of money because a lot 
of the--instead of building structures, you are paying for red 
tape and process. So that was one of our models.
    And then California was a great example because California 
has been hit with natural phenomena of earthquakes, and in 
fact, they have had to rebuild things. And they do it in the 
best fashion, environmentally sensitive attention, and also in 
rapid fire, which is what we are trying to speed up.
    I have more questions but I have been rejoined by our 
ranking member. I am only 14 minutes over. Is that--so you have 
got plenty of time just to--I will let her ask some questions 
and we will try to keep it moving.
    Ms. Duckworth. Thank you, Mr. Chairman. I apologize for my 
late return. I was under the impression we were going to do 
another vote right away so I was sitting there and they say, 
oh, no, no, no, 10 minutes so they will probably interrupt us.
    But I would like to discuss the need for significant 
investment. MAP-21 was important legislation, and now that it 
has been replaced by the new long-term reauthorization, the 
FAST Act, I sort of want to be sure to continue the spirit of 
investment.
    In the Chicagoland area, we have 200 bridges that have been 
deemed--and I probably am not getting the technical terms 
correct, but unsafe but okay to be used or substandard but okay 
to be used. And I wonder what that means, and I would like to 
know where those are so that I don't drive over them or have my 
baby over them.
    But, Mr. Echikson, can you explain, you know, why the 5-
year legislation with consistent funding is important to 
enabling states to move forward with transportation projects, 
especially when you have something like 200 bridges? You can't 
really--you know, my understanding, you can't really replace 
them all, but to sort of look at the long-term effect of the 
importance of this type of funding for State and municipalities 
in terms of infrastructure projects.
    Mr. Echikson. Well, having a long-term bill provides 
stability, certainty so that states and localities can do their 
planning. And even on particularly larger projects, they know 
the money is going to be there.
    I would agree with you that FAST is a start. We--there's a 
2013 Status of the Nation's Highways and Bridges Transit 
Conditions and Performance Report that was submitted to 
Congress, and as of 2010, the backlog of unmet highway and 
bridge needs has grown to--had grown to about $800 billion. 
Addressing that backlog would require about $145 billion per 
year. We as a nation spend about $100 billion per year. So 
we're not even keeping up with that need.
    FAST is absolutely a great start. It provides that 
certainty. But I would agree more funding, as we had proposed 
in the GROW AMERICA Act, is needed.
    Ms. Duckworth. Mr. Zachry, with the capability that we 
have, if we were to, you know, be able to fund as much as we 
want with the capacity for bridge builders and road builders, 
how long is it going to take us to actually invest and actually 
do the work if we were to go after, you know, all of the 
infrastructure, the bridges and the roads in this nation? I 
mean I would think that the sheer volume of what needs to be 
done, even if we threw a ton of money at it, it is going to 
take a while.
    Mr. Zachry. It would take a while. I have actually never 
even in my wildest dreams thought about that scenario if there 
was so much money to do it. You know, you've got issues of 
workforce development and the skills to actually go out and 
execute the work, the public entities, the DOTs. FHWA has to 
administer it and track it. You've got all of the permitting 
processes that have to go through. If you had an unlimited 
amount of money to go and try to address it, it would likely 
still--it would still take you a decade to--or something--I'm 
making up a number.
    Ms. Duckworth. Right. Right.
    Mr. Zachry. It would take many years. And remember that 
every time you put a road or any transportation system, an 
airport, anything in service, it immediately starts to degrade. 
And so you've also got maintenance costs as the system gets 
expanded. You have an ongoing maintenance requirement that in a 
lot of states is as significant as a capacity expansion 
requirement or greater. And so it's--just because we're 
spending more money doesn't mean we're not going to have to 
continue to spend more money.
    Ms. Duckworth. Can you compare where we are to other 
nations that we would be competing against? You know, we have 
talked extensively about the fact that the lack of investment 
in our infrastructure is something that is actually hurting our 
economy where we are not able to--it is costing us money, it is 
costing commuters money, it is costing businesses money. But, 
you know, in your position as head of your organization, can 
you talk a little bit about what is happening internationally 
and where do we stand in competition with countries that are, 
you know, our economic partners but are also our competitors, 
places like, you know, Europe and Asia.
    Mr. Zachry. I don't have that information in front of me 
but I'd be happy to get that for you.
    Ms. Duckworth. Okay. Does somebody else ----
    Mr. Zachry. I know the general discussion is that in 
certain countries, emerging countries, in China and others, 
that they spend a greater percentage of their GDP on 
infrastructure than we do in the U.S.
    Ms. Duckworth. Okay. Thank you. Mr. Echikson, can you 
address that a little bit and maybe describe briefly the master 
performance goals established by MAP-21 for the Federal highway 
programs as well?
    Mr. Echikson. I would need to get back to you on how our 
expenditures compare with other nations, but I'm sure we have 
that information and we'll get it to you.
    The national performance measures is--well, we've done a 
series of rulemakings. We have proposed all the rules save one. 
We're hoping to get that out in the first--so there's six total 
rules. The last one hopefully will be in the first quarter of 
2016. We're moving to finalize the first Performance Management 
Rule, which deals with safety. And the second Performance 
Management Rule should also be some time in at least the first 
6 months of 2016. And then there's associated rules. There's an 
update to the Highway Safety ----
    Mr. Stephanos. Improvement.
    Mr. Echikson.--Improvement Program, thank you. And also our 
Planning Rule ----
    Ms. Duckworth. So ----
    Mr. Echikson.--an Asset Management Rule, excuse me.
    Ms. Duckworth. So once you have completed your part on the 
rules, how long do the states have to establish the--I mean how 
long do you have after you have established performance 
measures for the states to implement their targets?
    Mr. Echikson. I'm going to turn this one over to Mr. 
Stephanos, who could probably answer that more accurately than 
I could.
    Mr. Stephanos. They have one year from the effective date 
of the final rules to establish targets.
    Ms. Duckworth. To establish targets. And ----
    Mr. Stephanos. And ----
    Ms. Duckworth.--do you have, as part of the rules or how 
long--how far out they can make those targets?
    Mr. Stephanos. We've proposed that the two--there's three 
rulemakings that propose the measures. Two of them have been 
issued as proposals. So for the safety rule it's one year, so 
they're setting safety targets for the end of the next calendar 
year. And then for our pavements and bridges, they're setting 
targets looking out two and four years. But in both cases those 
targets need to be incremental steps that lead towards longer-
term expectations that would be documented in their long-range 
plan or asset management plan.
    Ms. Duckworth. So you will set the maximum measure for the 
target, right, the time period that they can take. Is that what 
you would consider the baseline or is that just the maximum? I 
guess my question is do you establish a baseline and then say, 
okay, here is the baseline for this particular target but you 
can take longer but we prefer this to be the baseline? And once 
the targets are set, can you modify them?
    Mr. Stephanos. Yes, I'm sorry. I may have misunderstood 
your ----
    Ms. Duckworth. Okay.
    Mr. Stephanos.--question about timing. When I was referring 
to the time frame, it's the time horizon that they're setting 
the target to so ----
    Ms. Duckworth. Right.
    Mr. Stephanos.--for example, they want to reduce fatalities 
by a certain number by the end of the next calendar year. The 
base that--we aren't through rulemaking establishing any 
minimum standards of what that target shall be. The baseline 
that they base the target on is documented--is proposed in the 
rulemaking, what they already use and where that data is to 
come from. It would be the most recent data that they would 
have had available and that we have available in the national 
data source.
    And then they do--to answer your second question about 
adjusting that target, for the safety target for 1 year we're 
proposing that they don't have an opportunity to adjust that. 
They set it and they're held accountable to it. But for the 
payment bridge targets, the four year target that they would be 
setting at the two year point they have an opportunity to 
adjust those targets. How they adjust them and why they adjust 
them would be documented on a website so there's transparency. 
And then this would recur every two years after that point.
    Ms. Duckworth. Okay.
    Mr. Echikson. If I could just add, it's--just to be clear 
is we set the measure so ----
    Ms. Duckworth. Okay.
    Mr. Echikson.--fatalities, rate of fatalities, the number 
of fatalities, it is the State's responsibility to set the 
target in the manner that Mr. Stephanos just described.
    Ms. Duckworth. If that happens and they fail to meet the 
target, what happens? What are the consequences of a State 
meeting a target that they themselves set to try to meet your 
measure? What are the consequences?
    Mr. Echikson. It depends on the target, but for the safety 
target, if they fail to make significant progress towards that, 
they would have to invest certain amount of money to improve 
their performance there.
    On some of the other targets, pavement, bridges, and some 
of the performance management 3, the congestion and freight and 
air quality, they may have some reporting requirements, so 
additional reporting requirements. And under the FAST Act, 
which we're just trying to get a handle on, there's a new--if 
they fail to meet the freight target, they need to provide a 
report explaining how they're going to achieve that target in 
future years.
    Ms. Duckworth. Would their funding be affected? Because 
here is the thing that I am worried about, right: Illinois is a 
State that is on the verge of bankruptcy. We are in deep 
financial trouble. So you could have a State like Illinois that 
has set a target but finds that it is not meeting--does not 
have the funds to meet that target. But then can the Federal 
funding then be cut as a result of them not meeting their 
targets, which puts them further in the hole?
    Mr. Echikson. No, their funding is set by statute. They 
will get the same amount of money.
    With respect to the safety provisions, if they fail to meet 
their safety targets, they'll have to just spend more of that 
money to address those safety issues.
    Ms. Duckworth. So that is how you would enforce the State 
targets is the statute has that mechanism in it?
    Mr. Echikson. Correct.
    Ms. Duckworth. Okay. Is there any incentive for states to 
exceed their targets? What if they do really well, or to 
encourage them to pursue more ambitious targets?
    Mr. Echikson. We think--and again, I might have Pete expand 
upon this, but we--you know, we're trying to be as transparent 
about this as possible and so we're setting--I think the plan 
and idea is that a lot of this information is going to be out 
there in the public. So if a State fails to set an adequate 
target or sets a very easy target, that information is going to 
be available to the entire public. So I think there's an 
incentive for the states just based on that--you know, having 
all of this information be transparent to try to set targets 
both that are realistic that they can achieve but that are 
ambitious as well.
    Ms. Duckworth. Do you feel that the--and anyone on the 
panel can answer. Do you feel that the deadlines set in the 
legislation in the MAP-21 were too ambitious?
    Mr. Echikson. Well, I think, as the GAO reported, some of 
the rulemaking, particularly in the performance management 
area, were very ambitious. It was developing a whole new 
program, new standards, new methods, new data. We're moving 
through that, and as I said, I expect at least within the next 
6 months we will have two of those three performance management 
rules final, and we'll have the other one proposed. So, yes, 
they were very ambitious. We're working as expeditiously as we 
can to complete them.
    Ms. Duckworth. Well, I am encouraged to hear about the 
progress that is being made with the rulemaking. I think it is 
important to balance a need to have rules promulgated in a 
timely manner, as well as the need to ensure that the rules are 
actually carefully vetted and stakeholders are given the 
opportunity to express their views. So I thank you for the hard 
work that you are doing.
    I yield back, Mr. Chairman.
    Mr. Mica. Well, thank you. You know, I was reading the 
letter that you all sent us September 22 and looking at the 
projects, and then you had listed projects--I mean not projects 
but programs that you had consolidated or eliminated. I count 
12 programs that say not continued under MAP-21 program is 
spending down prior balances. So I count 12 that would be 
eliminated at the federal level. Is that right, Mr. Echikson?
    Mr. Echikson. That's correct. The states are responsible--
that money is still available for the states to spend, and 
they--you know, we're encouraging them and working with them to 
----
    Mr. Mica. Would we say after that this could result in some 
reduction in positions at the Federal level?
    Mr. Echikson. Again, with all due respect, the size of the 
Federal-aid Highway Program hasn't changed. The eligibilities 
for these different programs are now captured under, say, the 
Surface Transportation, the STP program, a lot more flexibility 
for the states to focus those expenditures as they deem 
appropriate.
    Mr. Mica. But it doesn't require the same Federal 
oversight? All of these--maybe you could send us, too, a list 
of who was involved in those positions previously, and then 
where they have been absorbed to.
    Mr. Echikson. I can see what we can get you, but we're not 
organized by program. We're organized by function. So we have 
people ----
    Mr. Mica. Okay. Well, function, the Appalachian Development 
Highway System, it says not continued under MAP-21. So was 
there somebody in charge of that before? I can get your old 
directory and look these people up.
    Mr. Echikson. There may have been somebody in charge of 
that program but ----
    Mr. Mica. Do you guys know, the two--was there somebody in 
charge of that before, people in an office? Was there an 
office?
    Mr. Bezio. That was a function within an office. There was 
a person that--one of their collateral duties was to oversee 
the Appalachian Development Highway System ----
    Mr. Echikson. Yes.
    Mr. Bezio.--and they still do so. Those balances are out 
there for states that--balances are available until expended, 
so those balances will spend down over many more years going 
forward. So it's one of their many collateral duties in their 
office ----
    Mr. Mica. So you can't really get rid of a program per se?
    Mr. Bezio. You--it--eventually, it'll be eliminated ----
    Mr. Mica. Yes, that is what I am saying ----
    Mr. Bezio. It eventually will be ----
    Mr. Mica.--but that was 3 years ago. This is, last time I 
checked, 2015, 3 years.
    Mr. Bezio. Right.
    Mr. Mica. I am not sure if we took care of this in new 
legislation. I am sure we didn't. But I have got at least a 
dozen here you reported to me on that situation, not to 
mention--consolidation I can see, consolidated with another 
one. But this says spending down prior balances and how long 
they would go. We don't do earmarks anymore, so I have got to 
find out from the Transportation Committee your progress in 
spending these balances down.
    Now, I could have probably--Mr. Echikson, I could have 
probably given a better case than you did on what you have 
done. If you go back and look at what you sent me--I should put 
this in the record and I will for you.
    Mr. Mica. In 2003 you had 2,366 FTEs. We were administering 
$30 billion, 31. It was 30.8. In 2012 you had $40 billion and 
you had 2,302, which is fewer people than in 2003. See, I would 
have touted that. Tell Foxx that you guys need to tout yourself 
on that kind of stuff. But then in 2014 that is where we went 
down to 2,281. Now, what I would like to do is to either have 
GAO or the IG come back and tell us--you are telling us how 
many projects you work on, and I think we need to look at 
those. This is dollars. What are you going up to in this 
program under MAP-21 for the next year, do you know, Echikson?
    Mr. Echikson. I believe it's around $43 billion.
    Mr. Mica. So it is going up $3 billion. But I want to go 
back and look at anecdotally and chronologically the number of 
projects that were involved. So let's get that from either them 
or the IG or GAO when we do this little report. So we will see 
how many actual projects you were doing. You have $3 billion 
more. Well, it is only $1 billion more because it is 42 
currently. And then we will look at these dozen programs and 
how long the spending down of prior balances is expected to 
continue. Maybe we can get the prior balances for all of those 
programs. So those are some of the things we would like to see.
    Now, I have a couple of other questions. In the bill we 
opened the door for--and here you go, Echikson. Again, this 
gave you some new responsibilities under public-private 
partnerships. I am familiar with the one we have in central 
Florida, which in record time was open. I hope it wasn't just 
because I was Chairman. But we are doing a $2.4 billion adding 
tolls to the center median. We kept free lanes free. As the 
federal Government, my philosophy is the Federal taxpayers 
already paid for them so we shouldn't be charging for them 
again. But we said the right-of-way inside medians, some of 
those assets could be converted as long as they were adding 
capacity.
    Now, we had the $2.4 million central Florida project. Maybe 
Zachry or Echikson, some of you guys might know how many others 
have taken advantage of a similar expansion of capacity through 
a public-private partnership. And that would be--Echikson, here 
is where you pipe in and you say, well, we have new 
responsibilities like your new road in central Florida, Mr. 
Mica. We add that in. Any idea, Zachry?
    Mr. Zachry. I don't have a number, Mr. Chairman ----
    Mr. Mica. If you do, maybe you could check that, get it 
back to ----
    Mr. Zachry. Yes, sir. Absolutely.
    Mr. Mica. I would like to see did that have an impact. I 
know it did in my community. I have heard of several others 
looking at that option.
    Echikson, do you know anything about it?
    Mr. Echikson. Well, our TIFIA office works very closely 
with--and has helped in ----
    Mr. Mica. You raised TIFIA and I did a billion in TIFIA, 
didn't we? And I think it went down by 60 percent. Can you tell 
us what ----
    Mr. Bezio. I believe it's $287 million in the FAST.
    Mr. Echikson. Yes.
    Mr. Stephanos. Yes.
    Mr. Mica. Yes. So it has actually gone down. Did we spend 
out the billion in TIFIA?
    Mr. Bezio. It is not fully spent down but I ----
    Mr. Mica. That is one of those ----
    Mr. Bezio.--have information in front of me.
    Mr. Mica. But obviously, there isn't as much money 
available. I am not happy about that. That was a real screw up 
they did ----
    Ms. Duckworth. Yes.
    Mr. Mica.--transportation infrastructure financing.
    Ms. Duckworth. They are not spending it.
    Mr. Mica. Well, and that is another good question for these 
guys is finding out how many TIFIA programs they had, how many 
people were involved, and how much was spent down and how much 
was unspent. They may have done that in taking the money down. 
I don't know if that was a reason. At one time I heard there 
were four or five times the dollar number of requests that we 
had or even more, but now we have lessened that. Do you know 
anything about that, Zachry?
    Mr. Zachry. Well, sir, I've heard that same general 
statistic that you had. I saw something recently about the 
percentage of TIFIA funding that was utilized by each State. 
And I think the largest was actually Texas that had availed 
itself of 20 percent of the total program dollars from TIFIA. 
But again, I don't know how many specific projects were tied up 
with either TIFIA or on a P3 basis.
    Mr. Mica. Okay. Well, and does anyone know anything more 
about the public-private partnerships, any information on that?
    Mr. Echikson. I have a little more information ----
    Mr. Mica. Yes, go ahead.
    Mr. Echikson.--which is you mentioned the I-4 project.
    Mr. Mica. Yes.
    Mr. Echikson. I think that was what you were referring to. 
We've used P3 projects on the Goethals Bridge, the Portsmouth 
Bypass in Ohio, and SH-22 is now--or 288, excuse me, is taking 
advantage of the P3 process. On TIFIA we have 59 TIFIA loans 
that we've closed. So it has been a very effective project.
    Mr. Mica. Yes.
    Mr. Echikson. We're fully supportive of public-private 
partnerships.
    Mr. Mica. Well, see, and, Echikson, next time you come in 
and say, oh, Mr. Chairman, because of your great work on MAP-21 
and you put more into TIFIA, we did 59 projects that required 
more personnel because of what you did on the public-private 
partnerships. You have got yours in Orlando and then you just 
named the others, make sure to get a list of those because I 
want to use that. But that does take more personnel, too.
    I don't mind giving DOT additional personnel, but also our 
intent was to try to devolve as much as we could of the red 
tape that Mr. Swonke talked about that I can't get the others 
to come and testify on that you are still imposing because some 
of those folks have stayed in DOT even though we have tried to 
devolve some activities, as many as possible to the local 
level, and they have a new role justifying their existence. And 
that is what concerns me. Do you see my point?
    Mr. Echikson. I do but I would say we're fully supportive 
of the devolution of certain requirements. The CEs, the states 
are responsible for all these CEs. They have to report to us 
but there's not much--there's limited oversight by FHWA except 
when they tried to create a new CE. But on the CEs that were 
developed in the statute ----
    Mr. Mica. And then ----
    Mr. Echikson.--that you referred to ----
    Mr. Mica. And then, again, you could come in and say that 
we have gone from whatever it was, more back in 2003 with less 
money, and I am sure it would be less projects and doing more. 
So I am trying to make your case for you for DOT. I will help 
you out with the testimony next time.
    Mr. Echikson. Thank you.
    Mr. Mica. All right. But I think it would be very helpful 
if we look at this, where our success is, where we can get you 
out of the red tape business, where we can devolve to the 
states, where they could get more money back quicker to the 
states because they turn the projects around quickly.
    You told me you went to 1,800. What was like your previous 
record?
    Mr. Swonke. We were--that's about what we've done in the 
past couple of years, but before that, it was more below 1,500, 
more like in the 12 to 1,400 range.
    Mr. Mica. You are talking actually what you testified to 
about 25 percent more efficiency out of it. When we did the 
road show for the MAP-21, we took the committee across the 
country, and we just heard one place after another cut the red 
tape, there are things that we can do locally, less in 
Washington, more State and local, and we could get the money 
out faster, get the projects done and approved faster. And 
sometimes you don't want to degrade the environment in any 
event, but sometimes there are very similar--and in fact, I 
think California and some of the states have even tougher 
environmental requirements than the Federal Government. Is that 
not the case, Mr. Zachry, Mr. Echikson?
    Mr. Zachry. At least our perspective, yes, sir, that 
California has very rigorous environmental standards that as a 
general rule exceed Federal ----
    Mr. Mica. Yes.
    Mr. Zachry.--requirements.
    Mr. Mica. And we negotiated MAP-21. Of course, Ms. Boxer is 
still the ranking person there, but she was chair and she 
wasn't going to give one inch on any issue regarding the 
environment that she felt wasn't being protected by actions and 
MAP-21.
    Well, I think this hearing is really just to sort of take 
the temperature of what we have done with the last bill, the 
new bill is coming in. If we have to, we can do some technical 
adjustments with Chairman Shuster and others, but what we want 
to do is get the biggest bang for the buck. If you need more 
personnel and we have programs at the Federal level that 
warrant them, we want to make certain that you have adequate 
resources and personnel.
    I think it would be very good, and I will talk to the 
Secretary and we will ask the Secretary to see if he can send 
out a letter now saying that some of these standards have been 
set to the states and that we have maybe even a model of MOU 
and see if there is more interest in devolving. That is our 
intent, Congress' intent. Nobody has to do it, but letting the 
states know that it is there. We have hammered out some of the 
details to get us there and here is an example. I think that 
would be most helpful.
    Mr. Zachry, you know, you guys are building them and we 
want to get the maximum for the money. We need to know from you 
where there are any opportunities for moving this whole process 
forward faster, can be realized. And a lot it can be the 
administration. We have got new legislation in place but we can 
work with Secretary and others to get these things done.
    And I really appreciate Mr. Swonke risking his entire 
transportation program and his relationship with DOT to risk 
coming here today. You are the only one I could find in the 
entire country. The others ran like scalded rabbits.
    Mr. Swonke. My pleasure.
    Mr. Mica. Mr. DeSaulnier, do you have any questions? 
Welcome, sir.
    Mr. DeSaulnier. Since I walked in and you were talking 
about California environmental rules and Senator Boxer, I just 
had a question to the FHWA. In California we did get, when I 
was still in the Legislature, a lot of input from our 
contractors in Caltrans about water permits and I wonder 
without, from my perspective--pardon the expression--diluting 
the protection either in the California Environmental Quality 
Act or NEPA. Do you look at those kind of things in terms of 
effectiveness and maybe making it--if there are obstacles to 
getting done efficiently? Because we get a lot of that from the 
contractors.
    Mr. Echikson. We absolutely have taken several steps to 
expedite those and coordinate those reviews. Just recently, we, 
along with the Corps of Engineers, reissued the Red Book, which 
is all about aligning environmental reviews. We're supporting, 
at least on the federal side, the use of a single environmental 
document that all the different federal agencies can and should 
rely upon. So we take several steps to try to coordinate that 
and expedite that. We have a permitting dashboard that's up for 
certain projects. We have an eNEPA project where all the 
environmental documents can be shared electronically instead of 
by hand with copies being sent around. It's all to try to 
expedite and reduce the time it takes to permit and proceed 
with a project.
    Mr. DeSaulnier. And do you measure those outcomes over time 
to see if they are still getting the environmental outcomes you 
want to but help facilitating getting the projects up and done?
    Mr. Echikson. I don't know that we've had it in place all 
those efforts long enough to make that sort of evaluation, but 
that's something we're always looking at to ensure that what 
we're doing is protective of the environment.
    Mr. DeSaulnier. And then just on a different subject matter 
but somewhat similar, I read on, I believe, your website or 
DOT's website about performance standards in general and that a 
lot of states are taking leadership. I think Washington, 
Minnesota, Massachusetts come to mind. So just watching what 
they are doing when it comes to performance standards for the 
future, both what you have in the act but potentially new ones, 
do you continue to engage with the State agencies when it comes 
to performance standards?
    Mr. Echikson. I'm not quite sure what you're referring to, 
but in terms of our Performance Management Program, we--one of 
the important things, because it is a completely new program 
with a lot of new requirements for the states and localities, 
is we've engaged with our stakeholders extensively to ensure we 
get their input and to ensure that whatever we ultimately 
finalize is--sort of minimizes the administrative burden that's 
being placed on them.
    Mr. DeSaulnier. So it would be twofold, and one would be 
just project delivery on the new capital side and then the 
maintenance and operations. So, for instance, Washington has 
something called a Gray Book where they actually every quarter 
they measure both investments in the corridor, capital 
investments, improvements and maintenance and operations, and 
then they tell the public what the results have been in terms 
of congestion. So do we do things just to make sure that we are 
mindful that, these as the expression goes, the states are the 
laboratories and we are keeping up with them or at least being 
apprised of it on both sides, project delivery and then 
maintenance and operations of the system?
    Mr. Echikson. I think I'd have to get back to you. I'm not 
quite sure. I mean in terms of our Performance Management 
Program, we're absolutely building off of what states are 
doing. We're trying to build a national program. In terms of 
project delivery, we work--obviously, the states are the 
laboratories of democracy, and if they've got great ideas, 
we've got a whole program called Every Day Counts that works 
very closely with the states and, you know, pushes forward new 
and innovative ideas so that we can expedite project delivery, 
one that Mr. Mica mentioned before about the bridge.
    We've got a whole new sort of bridge program where we 
install these bridges promptly. They're sort of precast 
prebuilt bridges that are dropped into place. That was all the 
result of our Every Day Counts program. So we're trying to do 
different things, working with the states to expedite project 
delivery, as well as ensure protection of the environment.
    Mr. DeSaulnier. Appreciate that. I appreciate that, Mr. 
Chairman. And if you can get me any material, I would be 
delighted to look at it.
    Mr. Echikson. Yes, sir.
    Mr. Mica. Any additional questions, Ms. Duckworth?
    [Nonverbal response.]
    Mr. Mica. Well, I want to thank you for participating 
today. We made some progress. We are also finding some new ways 
to develop projects. I attended a conference with Bobby Scott 
down in Orlando, assimilation conference, and one of the 
technologies we saw there that was developed for assimilation 
was training bridge inspectors. It is hard to replicate some of 
the training and also have bridges that are defective and going 
out. It is very costly, time-consuming. But I was quite 
impressed with some of the advances for training personnel, see 
what is out there, what is safe, some of the monitoring now we 
have of the bridges. And some of those are new programs. And 
you have got to put this stuff in your next testimony of new 
things you are doing.
    But there is a lot of good news. We always try to strive to 
do better, and you have given us some information today. We are 
going to ask you for additional questions, fill-in-the-blank. 
So we are going to leave the record open.
    I have the testimony of Michael P. Melaniphy, and he is the 
president and CEO of American Public Transportation, APTA. We 
will put that in the record. Without objection, so ordered.
    Mr. Mica. He is not with us but has a wealth of suggestions 
and recommendations, observations.
    Then, there being no further business, again, I want to 
thank our witnesses and, too, their participants for being with 
us today. And we will adjourn this hearing. Thank you.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
